  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




   MEDICARE COMPLIANCE REVIEW
  OF ROBERT PACKER HOSPITAL FOR
CALENDAR YEARS 2009 THROUGH 2011



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                      Brian P. Ritchie
                                                 Assistant Inspector General

                                                          May 2014
                                                        A-03-12-00003
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 Robert Packer Hospital did not fully comply with Medicare requirements for billing
 inpatient and outpatient services, resulting in overpayments of approximately $1.9 million
 over 3 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represented 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General must provide continual and adequate oversight of
Medicare payments to hospitals.

The objective of this review was to determine whether Robert Packer Hospital (the Hospital)
complied with Medicare requirements for billing inpatient and outpatient services on selected
claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays inpatient hospital costs at
predetermined rates for patient discharges. The rates vary according to the diagnosis-related
group (DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s
diagnosis. The DRG payment is, with certain exceptions, intended to be payment in full to the
hospital for all inpatient costs associated with the beneficiary’s stay. CMS pays for hospital
outpatient services on a rate-per-service basis that varies according to the assigned ambulatory
payment classification.

The Hospital, which is a part of the Guthrie Healthcare System, is a 254-bed teaching hospital
located in Sayre, Pennsylvania. Medicare paid the Hospital approximately $210 million for
services provided to beneficiaries during CYs 2009 through 2011 based on CMS’s National
Claims History data.

Our audit covered $5,100,582 in Medicare payments to the Hospital for 279 claims that we
judgmentally selected as potentially at risk for billing errors, consisting of 229 inpatient and
50 outpatient claims.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 180 of the 279 inpatient and
outpatient claims that we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 99 claims, resulting in overpayments of $1,876,257 for
CYs 2009 through 2011. Specifically, 94 inpatient claims had billing errors, resulting in
overpayments of $1,868,121 and 5 outpatient claims had billing errors, resulting in
overpayments of $8,136. These errors occurred primarily because the Hospital did not have


Medicare Compliance Review of Robert Packer Hospital (A-03-12-00003)                               i
adequate controls to prevent the incorrect billing of Medicare claims within the selected risk
areas that contained errors.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $1,876,257, consisting of $1,868,121 in overpayments
        for 94 incorrectly billed inpatient claims and $8,136 in overpayments for 5 incorrectly
        billed outpatient claims and

    •   strengthen controls to ensure full compliance with Medicare requirements

ROBERT PACKER HOSPITAL COMMENTS AND OUR RESPONSE

In written comments on our draft report, the Hospital agreed that 16 of the 99 claims were billed
incorrectly and described the actions it had taken and planned to take to address them. However,
the Hospital disagreed that the remaining 83 claims were billed incorrectly. The Hospital
disputed $1,743,105 of the overpayment amount and said that it “intends to exercise its
administrative appeal rights should CMS ultimately decide to request payment refunds related to
these claims.” The Hospital said that it had a vigorous process to review and confirm the
appropriateness of inpatient admissions, which included the review of certain cases by an
independent, nationally recognized physician organization. The Hospital said that a majority of
the inpatient admissions included in the sample were reviewed by this organization at the time
the patients received services and that the remaining sample claims were subsequently reviewed
by this organization.

After reviewing the hospital’s comments, we maintain that our findings are correct. For the
claims for which the Hospital had an independent review, we included the results of those
reviews as part of the medical record provided to our review contractor at the time of our audit.
The contractor determined that the claims did not meet Medicare coverage criteria for inpatient
admissions. The Hospital provided no new information or medical reviews to document that the
83 claims were billed correctly.




Medicare Compliance Review of Robert Packer Hospital (A-03-12-00003)                             ii
                                                    TABLE OF CONTENTS


INTRODUCTION .........................................................................................................................1

       Why We Did This Review .....................................................................................................1

      Objective ................................................................................................................................1

      Background ............................................................................................................................1
          The Medicare Program ..................................................................................................1
          Hospital Inpatient Prospective Payment System ...........................................................1
          Hospital Outpatient Prospective Payment System ........................................................1
          Hospital Claims at Risk for Incorrect Billing ................................................................2
          Medicare Requirements for Hospital Claims and Payments .........................................2
          Robert Packer Hospital ..................................................................................................3

      How We Conducted This Review ..........................................................................................3

FINDINGS .....................................................................................................................................3

      Billing Errors Associated With Inpatient Claims ...................................................................3
            Incorrectly Billed as Inpatient .......................................................................................3
            Incorrectly Billed Diagnosis-Related Group Codes ......................................................4
            Manufacturer Credits for Replaced Medical Devices Not Reported ............................4
            Incorrectly Billed as Separate Inpatient Stays ...............................................................4

       Billing Errors Associated With Outpatient Claims................................................................5
             Incorrectly Billed Healthcare Common Procedure Coding System Codes ...................5
             Incorrectly Billed Evaluation and Management Services .............................................5

RECOMMENDATIONS ...............................................................................................................6

ROBERT PACKER HOSPITAL COMMENTS AND
 OFFICE OF INSPECTOR GENERAL RESPONSE .................................................................6

APPENDIXES

        A: Audit Scope and Methodology ........................................................................................7

        B: Results of Review By Risk Area......................................................................................9

        C. Robert Packer Hospital Comments ................................................................................10




Medicare Compliance Review of Robert Packer Hospital (A-03-12-00003)                                                                         iii
                                                INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2011, Medicare
paid hospitals $151 billion, which represented 45 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Robert Packer Hospital (the Hospital) complied with
Medicare requirements for billing inpatient and outpatient services on selected claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program. CMS contracts with Medicare contractors to, among other things, process
and pay claims submitted by hospitals.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of Robert Packer Hospital (A-03-12-00003)                                         1
Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •   inpatient short stays,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient claims paid in excess of charges,

    •   inpatient and outpatient manufacturer credits for replaced medical devices,

    •   inpatient same-day discharges and readmissions,

    •   inpatient transfers,

    •   inpatient hospital-acquired conditions and present-on-admission indicator reporting,

    •   outpatient claims paid in excess of $25,000,

    •   outpatient claims billed with evaluation and management (E&M) services,

    •   outpatient claims billed with modifier -59, and

    •   outpatient surgeries billed with units greater than one.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items and services that “are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).

The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). In addition, the Manual states that providers must use HCPCS
codes for most outpatient services (chapter 23, § 20.3).



Medicare Compliance Review of Robert Packer Hospital (A-03-12-00003)                                2
Robert Packer Hospital

The Hospital, which is a part of the Guthrie Healthcare System, is a 254-bed teaching hospital
located in Sayre, Pennsylvania. Medicare paid the Hospital approximately $210 million for
services provided to beneficiaries during CYs 2009 through 2011 based on CMS’s National
Claims History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $5,100,582 in Medicare payments to the Hospital for 279 claims that we
judgmentally selected as potentially at risk for billing errors. These 279 claims consisted of 229
inpatient and 50 outpatient claims with dates of service during CYs 2009 through 2011 (audit
period). We focused our review on the risk areas that we had identified as a result of previous
OIG reviews at other hospitals. We evaluated compliance with selected billing requirements and
subjected 96 claims to focused medical review to determine whether the services were medically
necessary. This report focuses on selected risk areas and does not represent an overall
assessment of all claims submitted by the Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                                              FINDINGS

The Hospital complied with Medicare billing requirements for 180 of the 279 inpatient and
outpatient claims that we reviewed. However, the Hospital did not fully comply with Medicare
billing requirements for the remaining 99 claims, resulting in overpayments of $1,876,257 for the
audit period. Specifically, 94 inpatient claims had billing errors, resulting in overpayments of
$1,868,121, and 5 outpatient claims had billing errors, resulting in overpayments of $8,136.
These errors occurred primarily because the Hospital did not have adequate controls to prevent
the incorrect billing of Medicare claims within the selected risk areas that contained errors.

Appendix B summarizes, by risk areas reviewed, the overpayments identified in this report.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 94 of 229 selected inpatient claims, which resulted
in overpayments of $1,868,121.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, § 1862(a)(1)(A)).



Medicare Compliance Review of Robert Packer Hospital (A-03-12-00003)                          3
For 81 of the 229 selected inpatient claims, the Hospital incorrectly billed Medicare Part A for
beneficiary stays that should have been billed as outpatient or outpatient with observation
services. For 5 of the 81 claims, Hospital officials said the cause was human error. For the
remaining 76 claims, Hospital officials did not provide a cause for these errors because they
disagreed with our finding. As a result of these errors, the Hospital received overpayments of
$1,736,061. 2

Incorrectly Billed Diagnosis-Related Group Codes

Medicare payments may not be made for items or services that “are not reasonable and necessary
for the diagnosis or treatment of illness or injury or to improve the functioning of a malformed
body member” (the Act, §1862(a)(1)(A)). In addition, the Manual states: “In order to be
processed correctly and promptly, a bill must be completed accurately” (chapter 1, § 80.3.2.2).

For 8 of the 229 selected inpatient claims, the Hospital billed Medicare for incorrect DRG codes.
For 3 of the 8 claims, Hospital officials said the cause was human error. For the remaining 5
claims, Hospital officials did not provide a cause for these errors because they disagreed with our
finding. As a result of these errors, the Hospital received overpayments of $92,845.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the device cost, or (3) the provider receives a credit equal to 50 percent or more of the
device cost (42 CFR § 412.89). The Manual states that, to bill correctly for a replacement device
that was provided with a credit, hospitals must code Medicare claims with a combination of
condition code 49 or 50, along with value code “FD” (chapter 3, § 100.8).

For 3 of the 229 selected inpatient claims, the Hospital received reportable credits from
manufacturers for replaced devices but did not adjust its inpatient claims with the proper
condition and value codes to reduce payment as required. Hospital officials stated that the errors
occurred because procedures coordinating functions among departments were not followed
properly. As a result of these errors, the Hospital received overpayments of $28,007.

Incorrectly Billed as Separate Inpatient Stays

The Manual (chapter 3, § 40.2.5) states:

        When a patient is discharged/transferred from an acute care Prospective Payment
        System (PPS) hospital, and is readmitted to the same acute care PPS hospital on
2
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor prior to the issuance of our report.



Medicare Compliance Review of Robert Packer Hospital (A-03-12-00003)                                            4
        the same day for symptoms related to, or for evaluation and management of, the
        prior stay’s medical condition, hospitals shall adjust the original claim generated
        by the original stay by combining the original and subsequent stay onto a single
        claim.

For 2 of the 229 selected inpatient claims, the Hospital billed Medicare separately for related
discharges and readmissions within the same day. Hospital officials did not provide a cause for
these errors because they disagreed with our finding. As a result of these errors, the Hospital
received overpayments of $11,208.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 5 of 50 selected outpatient claims, which resulted in
overpayments of $8,136.

Incorrectly Billed Healthcare Common Procedure Coding System Codes

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)). In addition, the Manual states:
“In order to be processed correctly and promptly, a bill must be completed accurately” (chapter
1, § 80.3.2.2).

For 2 of the 50 selected outpatient claims, the Hospital submitted the claims to Medicare with
incorrect HCPCS codes. Hospital officials stated that these errors occurred because medical
documentation was misinterpreted by the coders. As a result of these errors, the Hospital
received overpayments of $7,672.

Incorrectly Billed Evaluation and Management Services

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)). The Manual states that a
Medicare contractor pays for an E&M service that is significant, separately identifiable, and
above and beyond the usual preoperative and postoperative work of the procedure (chapter 12,
§ 30.6.6(B)).

For 3 of the 50 selected outpatient claims, the Hospital incorrectly billed Medicare for E&M
services that were not significant, separately identifiable, and above and beyond the usual
preoperative work of the procedures. Hospital officials stated that these errors occurred because
coding staff did not always understand the billing requirements for E&M services. As a result of
these errors, the Hospital received overpayments of $464.




Medicare Compliance Review of Robert Packer Hospital (A-03-12-00003)                          5
                                      RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $1,876,257, consisting of $1,868,121 in overpayments
        for 94 incorrectly billed inpatient claims and $8,136 in overpayments for 5 incorrectly
        billed outpatient claims and

    •   strengthen controls to ensure full compliance with Medicare requirements.

                      ROBERT PACKER HOSPITAL COMMENTS
                   AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Hospital agreed that 16 of the 99 claims were billed
incorrectly and described the actions it had taken and planned to take to address them. However,
the Hospital disagreed that the remaining 83 claims were billed incorrectly. The Hospital
disputed $1,743,105 of the overpayment amount and said that it “intends to exercise its
administrative appeal rights should CMS ultimately decide to request payment refunds related to
these claims.” The Hospital said that it had a vigorous process to review and confirm the
appropriateness of inpatient admissions, which included the review of certain cases by an
independent, nationally recognized physician organization. The Hospital said that a majority of
the inpatient admissions included in the sample were reviewed by this organization at the time
the patients received services and that the remaining sample claims were subsequently reviewed
by this organization. The Hospital’s comments are included in their entirety as Appendix C.

After reviewing the hospital’s comments, we maintain that our findings are correct. For the
claims for which the Hospital had an independent review, we included the results of those
reviews as part of the medical record provided to our review contractor at the time of our audit.
The contractor determined that the claims did not meet Medicare coverage criteria for inpatient
admissions. The Hospital provided no new information or medical reviews to document that the
83 claims were billed correctly.




Medicare Compliance Review of Robert Packer Hospital (A-03-12-00003)                          6
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $5,100,582 in Medicare payments to the Hospital for 279 claims that we
judgmentally selected as potentially at risk for billing errors. These 279 claims consisted of 229
inpatient and 50 outpatient claims with dates of service during CYs 2009 through 2011 (audit
period).

We focused our review on the risk areas that we had identified as a result of prior OIG reviews at
other hospitals. We evaluated compliance with selected billing requirements and subjected 96
claims to focused medical review to determine whether the services were medically necessary.

We limited our review of the Hospital’s internal controls to those applicable to the inpatient and
outpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork from September 2012 through August 2013 at the Hospital in
Sayre, Pennsylvania.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s inpatient and outpatient paid claim data from CMS’s National
        Claims History file for the audit period;

    •   obtained information on known credits for replaced cardiac medical devices from the
        device manufacturers for the audit period;

    •   used computer matching, data mining, and data analysis techniques to identify claims
        potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 279 claims (229 inpatient and 50 outpatient) for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;




Medicare Compliance Review of Robert Packer Hospital (A-03-12-00003)                             7
    •   reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the selected claims;

    •   requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   reviewed the Hospital’s procedures for submitting Medicare claims;

    •   used CMS’s Medicare contractor medical review staff and an independent contractor to
        determine whether 96 selected claims met medical necessity requirements;

    •   discussed the incorrectly billed claims with Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Robert Packer Hospital (A-03-12-00003)                             8
                    APPENDIX B: RESULTS OF REVIEW BY RISK AREA

                                                               Value of         Claims With          Value of
                                             Selected          Selected            Over-              Over-
               Risk Area                     Claims            Claims            Payments            Payments
Inpatient
Short Stays                                      133          $2,425,048                 73         $1,591,467
Claims Billed With High Severity
                                                  33             550,511                 10            125,344
Level DRG Codes
Inpatient Claims Paid in Excess of
                                                   6             189,928                  3              73,449
Charges
Manufacturer Credits for Replaced
                                                  29             611,034                  6              66,653
Medical Devices
Same-Day Discharges and
                                                  14             106,347                  2              11,208
Readmissions
Transfers                                          3             195,155                  0                    0
Hospital-Acquired Conditions and
Present-on-Admission Indicator                    11               99,203                 0                    0
Reporting
Inpatient Totals                                 229          $4,177,226                 94         $1,868,121

Outpatient
Claims Paid in Excess of $25,000                  12            $336,869                  2              $7,672
Claims Billed with Evaluation and
                                                   6               62,959                 3                 464
Management Services
Claims Billed With Modifier -59                   23             433,906                  0                    0
Manufacturer Credits for Replaced
                                                   6               68,603                 0                    0
Medical Devices
Outpatient Surgeries Billed With
                                                   3               21,019                 0                    0
Units Greater Than One
Outpatient Totals                                 50            $923,356                  5              $8,136

Inpatient and Outpatient Totals                  279          $5,100,582                 99         $1,876,257

Notice: The table above illustrates the results of our review by risk area. In it, we have organized inpatient and
outpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
billing errors we found at the Hospital. Because we have organized the information differently, the information in
the individual risk areas in this table does not match precisely with this report’s findings.




Medicare Compliance Review of Robert Packer Hospital (A-03-12-00003)                                           9
                  APPENDIX C: ROBERT PACKER HOSPITAL COMMENTS


GUTHRIE
                                                                                Robert Packer Hospital
                                                                                One Guthrie Square
                                                                                Sayre, PA 18840-1698
                                                                                Tel 570.888.6666

January 17, 2014

Mr. Stephen Virbitsky
Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Inspector General
Office of Audit Services, Region III
Public Ledger Building, Suite 316
150 S. Independence Mall West
Philadelphia, PA 19106

        RE: Audit Report A-03-12-00003, Medicare Compliance Review of Robert Packer Hospital
            for Calendar Years 2009 Through 2011

Dear Mr. Virbitsky:

Robert Packer Hospital ("the Hospital") appreciates the opportunity to provide comments on the Office of
the Inspector General's ("OIG") draft report entitled "Medicare Compliance Review of Robert Packer
Hospital for Calendar Years 2009 Through 2011" (the "Draft Report"). The Hospital has a proud
tradition of caring - for its patients, its staff and the communities it services. The Hospital also strives to
deliver care compassionately and to act with integrity in everything it does. Consistent with its tradition
of caring, the Hospital maintains a culture that promotes strict adherence to applicable federal, state, and
local laws and regulations.

The OIG reviewed selected claims in twelve areas determined to be at risk for noncompliance with
Medicare billing requirements based on prior OIG Compliance Reviews of payments to hospitals. The
OIG audit covered $5,100,582 in Medicare payments to the Hospital during calendar years 2009 through
2011 based on 279 claims (229 inpatient and 50 outpatient claims) that were judgmentally selected by
OIG as potentially at risk for billing errors. As a result of the review, the OIG identified 99 claims that it
believed were billed incorrectly, resulting in overpayments amounting to $1,876,257.

As described in greater detail below, the Hospital disagrees with the OIG's determination that 83 of the
99 were billed incorrect, and the Hospital disputes $1,743,105 of the total overpayments calculated by the
OIG. Regarding the remaining 16 claims, the Hospital agrees with the OIG's determination and has
refunded Medicare payments attributable to these 16 claims through the normal claims adjudication
process.


www.guthrie.org


Medicare Compliance Review of Robert Packer Hospital (A-03-12-00003)                                        10
BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

        A) Incorrectly Billed as Inpatient

        The OIG Draft Report indicates that 81 claims were incorrectly billed as inpatient admissions
        based on a medical review performed by consultants engaged by the OIG. The OIG's consultants
        determined that 76 of the 81 claims, which total $1,693,916 of the claimed overpayments, were
        not reasonable and necessary for the diagnosis or treatment of the patient's illness or injury.

        The Hospital disagrees with the findings of the OIG's consultants. The Hospital has implemented
        a vigorous process to review and confirm the appropriateness of inpatient admissions at the
        Hospital, a process that includes the review of certain cases by an independent, nationally
        recognized physician organization to confirm the appropriateness of inpatient admissions at the
        time the patient received services at the Hospital. A majority of the inpatient admissions included
        in the sample were reviewed by this independent physician organization at the time the patient
        received services at the Hospital and deemed to be appropriate inpatient admissions. The
        remaining claims were subsequently reviewed by this independent physician organization and
        found to have been appropriate inpatient admissions.

        The Hospital intends to exercise its administrative appeal rights should the Centers for Medicare
        & Medicaid Services ("CMS") ultimately decide to request payment refunds related to these 76
        claims. The Hospital has developed a robust system to review and confirm the appropriateness of
        inpatient admission decisions at the Hospital. The Hospital is constantly exploring ways to
        improve the effectiveness of its policies and procedures and it will look for opportunities to
        improve its procedures to review and confirm the appropriateness of inpatient admissions.
        However, the Hospital examined these procedures as a result of the OIG's findings and did not
        identify a need to substantially modify the process at this time.

        The Hospital agrees with the OIG's findings that 5 claims were incorrectly billed as a result of
        human error. To address these billing errors, the Hospital has refunded $42,145 to the Medicare
        contractor related to these claims through the normal claims adjudication process, and intends to
        furnish additional education and training to those Case Management and/or Utilization
        Management staff involved in these errors.


        B) Incorrectly Billed Diagnostic Related Group Codes

        The OIG Draft Report indicates 8 inpatient claims were billed as inpatient admissions with
        incorrect DRG codes. The Hospital disagrees with the OIG's findings that 5 of the 8 claims were
        billed incorrectly and intends to exercise its administrative appeal rights should CMS ultimately
        decide to request payment refunds related to these claims. The Hospital agrees that 3 of the 8
        claims were incorrectly billed as a result of human error. With respect to these 3 claims, the
        Hospital has undertaken the following corrective actions:

             •   The Hospital has refunded $55,153 to the Medicare contractor related to these claims
                 through the normal claims adjudication process.
             •   The Hospital intends to furnish additional education and training to the Coding Staff
                 responsible for coding compliance.
             •   The Hospital implemented a process to identify for further review those patients whose
                 primary procedure may be unrelated to the principal diagnosis.




Medicare Compliance Review of Robert Packer Hospital (A-03-12-00003)                                   11
             •    The Hospital's compliance department will conduct additional audits of these cases to
                  ensure continued compliance with CMS requirements.

        C) Manufacturer Credits for Replaced Medical Devices Not Reported

        OIG Draft Report indicates 3 inpatient claims were incorrectly billed due to the omission of
        proper value and condition codes for reportable credits from manufacturers for replaced devices.
        The Hospital agrees with the OIG's findings and has undertaken the following corrective actions
        with respect to these 3 claims:

             •   The Hospital has refunded $27,718 to the Medicare contractor related to these claims
                 through the normal claims adjudication process.
             •   The Hospital intends to furnish additional education and training to the billing clerks
                 responsible for these transactions.
             •   The Hospital has implemented a Cardiac Catheterization Laboratory Six Sigma Process
                 Improvement initiative that requires participation from all pertinent departments as well
                 as device manufacturers.
             •   The Hospital's compliance department will conduct additional audits of these cases to
                 ensure continued compliance CMS requirements.

        D) Incorrectly Billed as Separate Inpatient Stays

        The OIG Draft Report indicates 2 inpatient claims were incorrectly billed due to related discharge
        and admission within the same day. The Hospital disagrees with the OIG's findings and intends
        to exercise its administrative appeal rights should CMS ultimately decide to request payment
        refunds related to these claims.

        The Hospital engaged an independent physician review organization to review the inpatient
        admissions reflected in the sample claims and the independent physician reviewer confirmed the
        Hospital's decision to treat the readmission as unrelated to the discharge. The Hospital believes it
        has complied with the Medicare billing requirements for these cases.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

According to the OIG Draft Report, the Hospital incorrectly billed 5 of the 50 selected outpatient claims,
resulting in an overpayment of $8,136.

        A) Incorrectly Billed Healthcare Common Procedure Coding Systems Codes

        The OIG Draft Report indicates 2 outpatient claims were billed with incorrect HCPC codes. The
        Hospital agrees with the OIG findings and attributes the incorrect billing to human error and
        misinterpretation of the clinical documentation. The Hospital has undertaken the following
        corrective actions with respect to these 2 claims:

             •   The Hospital has refunded $7,672 to the Medicare contractor related to these claims
                 through the normal claims adjudication process.
             •   The Hospital intends to furnish additional education and training to the Coding Staff
                 responsible for coding compliance.




Medicare Compliance Review of Robert Packer Hospital (A-03-12-00003)                                     12
             • The Hospital furnished additional education and training to physicians to ensure complete
               and specific documentation in the medical record to prevent any misunderstanding of the
               procedures completed.
             • The Hospital's compliance department will conduct additional audits of these cases to
               ensure continued compliance CMS requirements.

        B) Incorrectly Billed Evaluation and Management ("E&M") Services

        The OIG Draft Report indicates 3 outpatient claims for E&M Services were incorrectly billed
        because they were not significant, separately identifiable, and above and beyond the usual
        preoperative and postoperative work of the procedure. The Hospital agrees with the OIG's
        findings and attributes the incorrect billing to human error. The Hospital has undertaken the
        following corrective actions with respect to these 3 claims:

             •    The Hospital has refunded $464 to the Medicare contractor related to these claims
                  through the normal claims adjudication process.
             •    The Hospital has re-educated the staff in the applicable departments regarding the
                  circumstances under which E&M services may be billed on the same day as a procedure.
             •    With respect to other E&M services, the Hospital has taken steps to strengthen its internal
                  review and audit processes related to these services.
             •    The Hospital has implemented an internal billing report that identifies the modifiers in
                  use and their account application to assist the departments in ensuring use of the correct
                  modifier.
             •   The Hospital's compliance department will conduct additional audits of these cases to
                 ensure continued compliance CMS requirements.

                                                  *   * *
        Robert Packer Hospital takes its compliance obligations seriously and remains committed to
        implementing, monitoring, and where appropriate strengthening internal controls in order to
        maintain compliance with all CMS billing requirements.

        We commend the OIG audit team who conducted this review for their professionalism, and we
        appreciate your consideration of these comments. Please do not hesitate to contact me should you
        need any additional information.

        Sincerely,


        /Lucia Saggiomo, CPA/

        Vice President, Internal Audit and Compliance

        cc. Joseph Scopelliti, Chief Executive Officer, Guthrie Health
            Richard Bennett, Chief Financial Officer, Guthrie Health
            Marie Droege, President, Guthrie Healthcare System
            Minh Dang, Chief Financial Officer, Robert Packer Hospital
            Roger Lathrop, Corporate Compliance Officer, GHS


Medicare Compliance Review of Robert Packer Hospital (A-03-12-00003)                                    13
